                                 Closeout for M97060019

            In May 1997, we received an allegation that a confidential peer reviewer ('the
    subject') committed intellectual theft by copying an experimental protocol from an
    National Science Foundation (NSF) proposal' submitted by two scientist^.^ The subject
    published a journal manuscript3based on a novel experimental protocol described in this
    proposal.

           National Science Foundation records indicate transmission of this proposal for
    confidential peer review to the subject in September 1995. The subject returned this
    proposal to NSF in early October 1995. The agency records do not indicate the reason(s)
    why the subject returned this proposal.

        In the same general time frame as our receipt of this allegation, another scientist
('the second ~ o m ~ l a i n a n tcommunicated
                                  ')~          the same intellectual theft allegation along
with additional allegations of plagiarism, failure to acknowledge contributions and
misrepresentation of research data to several professors and one journal editor. However,
the second complainant did not submit a formal allegation to the Office of the Dean, as
required by university regulations, and as a result the university did not conduct a formal
inquiry into these allegations.

        In June 1997, the university conducted an "unofficial departmental inquiry"
which involved a cursory examination of the allegations. The "unofficial departmental
inquiry committee" did not interview several material witnesses. In addition,'the second
complainant possessed a potentially critical laboratory notebook, so the "unofficial
departmental inquiry committee" could not review important research data. After
considering the remaining documentary evidence along with the subject's recollection of
dates and times, the "unofficial departmental inquiry committee" submitted a final report
to the Office of Inspector General (OIG) which found no evidence to support any
allegations of misconduct in science against the subject.

        Although our jurisdiction reached the subject's alleged violation of the
confidentiality of NSF's peer review process, NSF did not fund the subject's research,
and accordingly our jurisdiction did not reach the remaining allegations. Our office
contacted the federal agency5 responsible for funding the subject's research projects. This
federal agency approved a joint inquiry into the allegations, with NSF as the lead agency.

        After coordinating the joint inquiry, OIG requested supplemental responses to
several questions in the "unofficial departmental inquiry" report. In the alternative, OIG


' [footnote redacted]
    [footnote redacted]
    [footnote redacted]
4
    [footnote redacted]
    [footnote redacted]

                                      Page 1 of 3
suggested the university conduct a complete formal inquiry following university
regulations. The university decided to conduct a formal inquiry.

        The formal inquiry committee conducted interviews with the subject and several
material witnesses along with a more complete review of documentary evidence. In
addition, the inquiry committee interviewed the second complainant. In August 1999, the
inquiry committee submitted a report which found no support to the allegations against
the subject. In particular, the inquiry committee concluded (1) the subject did not violate
the confidentiality of the peer review process; (2) the subject did not plagiarize the
second complainant's manuscript; (3) the subject did not improperly publish the second
complainant's data; (4) the subject did not improperly fail to acknowledge contributions
of a colleague; (5) the subject did not improperly fail to reference preliminary reports;
and (6) the subject did not misrepresent data or research results.

        After reading the inquiry committee report, the federal agency responsible for
funding the subject's research declined any further inquiry into these allegations.
However, OIG requested additional information from the inquiry committee. In
particular, OIG requested a clarification of the subject's statement to the inquiry
committee that receipt of the NSF proposal provided "the impetus to repeat or complete
experiments and to submit the findings for publication." In response, the inquiry
committee provided conversation notes and additional photographic images.

       In September 1999, OIG interviewed the second complainant. According to the
second complainant, the subject kept a photocopy of the NSF proposal in the laboratory
for an extended period of time after October 1995. At this interview, OIG secured the
missing laboratory notebook.      An analysis of the laboratory notebook proved
inconclusive.

        In January 2000, OIG conducted a personal interview with the subject to resolve
timeline discrepancies and the ambiguity of the subject's statement concerning "the
impetus to repeat or complete experiments." At this interview, the subject could not
explain a one year discrepancy in the timeline provided to OIG and a timeline provided in
a response letter to the authors of the NSF proposal. After repeated questioning, the
subject dismissed the timeline discrepancy as a simple mistake.

        The subject provided only a vague clarification of the statement concerning the
"impetus to repeat or complete experiments." According to the subject, a figure in the
NSF proposal led to concerns the two scientists would "scoop" credit for the discovery.
So, the subject decided to "repeat or complete experiments."

       After a complete inquiry into all allegations, OIG could not conclusively prove
the subject committed misconduct in science. Accordingly, this case is closed.

       The missing laboratory notebook.wil1be returned to the university.




                                    Page 2 of 3
Cc: Integrity, IG




                    Page 3 of 3
